          Review of Mainframe Access Controls at the Application Level
           RRB-Developed Applications Controlled by ACF2 and IDMS
                      Report No. 04-08, September 7, 2004

                                    INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) audit of the
effectiveness of access controls in ensuring security over mainframe applications
developed by programmers at the Railroad Retirement Board (RRB).

Background

The RRB administers the retirement/survivor and unemployment/sickness insurance
benefit programs for railroad workers and their families under the Railroad Retirement
Act (RRA) and the Railroad Unemployment Insurance Act (RUIA). These programs
provide income protection during old age and in the event of disability, death, temporary
unemployment or sickness. The RRB paid out nearly $9 billion in benefits during fiscal
year (FY) 2003.

The RRB’s information system environment consists of two general support systems
and seven major application systems. The two general support systems are the data
processing system, which supports all mainframe computing activity, and the end-user
computing system, which supports the agency’s local and wide area networks. The
major application systems correspond to the RRB’s critical operational activities:
payment of RRA and RUIA benefits, maintenance of compensation and service records,
administration of Medicare entitlement, financial management, personnel/payroll, and
the RRB’s financial interchange with the Social Security Administration.

The RRB has set forth agency-specific information security requirements in its
administrative circulars. The agency’s Chief Information Officer, also the director of the
RRB’s Bureau of Information Services, has overall responsibility for administration of
both data processing and end-user computing as well as in-house systems
development. Within the Bureau of Information Services, the Chief Security Officer has
primary responsibility for coordinating, evaluating and reporting on information security
within the agency.

The RRB maintains a staff of software programmers and system analysts to develop
applications that support the agency’s various program operations. Access to in-house
developed applications is controlled by commercial access control software products
marketed by Computer Associates International, Inc: CA-ACF2, an access control
software package, or IDMS a database management system. The Bureau of
Information Services has responsibility for security administration for in-house
developed systems controlled by CA-ACF2 and IDMS.

Information security is defined as protecting information and information systems from
unauthorized access, use, disclosure, disruption, modification or destruction in order to



                                             1

provide integrity, confidentiality and availability. Access controls limit or detect access
to computer resources (data, programs, equipment, and facilities), thereby protecting
these resources against unauthorized modification, loss, and disclosure. Previous OIG
security evaluations cited the agency for material weaknesses due to significant
deficiencies in access controls in the mainframe and end-user computing environments
and in the training provided to staff who have significant security responsibilities.

The Office of Management and Budget (OMB) has published guidance to assist Federal
managers in meeting the management control and computer security requirements of
the Computer Security Act of 1987, the Chief Financial Officers Act of 1990, and the
Clinger-Cohen Act of 1996. OMB Circular A-130, “Management of Federal Information
Resources,” Appendix III, dated November 30, 2000, establishes policy for the
management of Federal information resources and establishes a minimum set of
controls to be included in Federal automated information security programs.

This evaluation was conducted pursuant to the E-Government Act of 2002 (P.L. 107-
347), Title III, the Federal Information Security Management Act of 2002 (FISMA), which
requires annual Inspector General security evaluations.

Objective, Scope and Methodology

The objective of this evaluation was to assess the effectiveness of access controls in
appropriately limiting access to systems for which security is controlled by CA-ACF2 or
IDMS. In order to accomplish our objective, we:

   •	 identified users of RRB-developed applications as of November 2003 and
      documented their system privileges.
   •	 obtained an understanding of the security configurations established by CA-
      ACF2 or IDMS;
   •	 obtained an understanding of the policies and procedure through which system
      access is requested, authorized, granted and maintained;
   •	 obtained an understanding of the access re-authorization process through
      discussions with responsible management and staff, and reviews of supporting
      documentation as available; and
   •	 used statistical and non-statistical sampling to assess the effectiveness of
      controls in limiting access to RRB-developed applications.

We limited our testing to the approximately 45 systems that support the RRB’s program
operations. Our sampling methodology and results are presented in Appendix I to this
report.

Our work was performed in accordance with generally accepted government auditing
standards as applicable to the objective. Fieldwork was conducted at RRB
headquarters during December 2003 through May 2004.



                                             2

                                RESULTS OF REVIEW


Existing controls are not effective in appropriately limiting access to RRB-developed
mainframe systems. Our testing disclosed that existing controls are not effective in
ensuring that system users are limited to only those privileges required for the
performance of their current job. We also identified weaknesses in the implementation
of segregation of duties that permit some users to perform too many key activities.

The details of our findings and recommendations follow. Although management
generally agreed with our findings and agreed to take corrective action, some changes
may be delayed pending availability of resources or implementation of changes to the
data processing environment. The full text of the responses of the Bureau of
Information Services and the Office of Programs are included in this report as
appendices II and III respectively.


Access Not Limited to the Needs of Current Position

The RRB’s existing control framework is not adequate to ensure that the access
privileges granted to users of RRB-developed applications are limited to only those
required by their current employment. Our conclusion is based on the results of a
statistical sample that indicates the agency has not ensured that, at minimum, the
access privileges of 95% of users have been appropriately restricted.

OMB Circular A-130 requires Federal agencies to limit a user’s access (to data files,
processing capability, or peripherals) or type of access (read, execute, delete) to the
minimum necessary to perform his or her job. Current RRB policy calls for periodic
system re-authorization reviews. A re-authorization review is an internal control process
designed to identify changes in user needs. During the re-authorization, supervisors
have the opportunity to review the current access privileges of their staff and identify
any needed changes or corrections.

Based on our evaluation, the RRB has not adequately restricted user privileges to only
those required by their current position. The results of the sample evaluation indicate
that the number of users whose privileges exceed the requirements of their current job
exceed 5%. We reviewed the access profiles of 186 randomly selected system users
and found that 66 users (35%) had at least one privilege not required for the
performance of their job.

The existing review and re-authorization process is not adequate to ensure that system
users retain only those privileges required for their current employment. The current
process is not effective because:

      •   all re-authorization reviews are not performed;
      •   re-authorization reviews do not include non-RRB employees;


                                           3

      •   all changes requested during re-authorization reviews are not made;
      •	 the process does not include all levels of access for systems with security
         features controlled by a separate security system in addition to IDMS or
         ACF2; and
      •	 the process is not well documented with respect to timeliness and
         accountability for actions taken by system owners and administrators.

In addition, some systems were initially developed without a “Read-Only” access option
for those who do not require higher-level privileges. In these cases, access cannot be
appropriately restricted.

The lack of effective procedures and controls to ensure that system access is limited to
the requirements of each user’s current job weakens the overall structure of information
security.

Recommendations

We recommend that:

   1. 	 The Bureau of Information Services implement a quality assurance program to
        ensure the timeliness and effectiveness of the re-authorization process for all
        agency-developed applications. Such a process should include:

          •   a review for completeness of documentation;
          •   periodic testing to verify the effectiveness of the process; and
          •	 issuance of an annual report communicating to the Chief Information
             Officer the results of the annual re-authorization process including an
             objective assessment of its overall effectiveness.

   2. 	 The Office of Programs consider modifications to provide “Read-Only” access to
        those systems for which such access is not currently available.

Management’s Response

The Bureau of Information Services concurs with the recommendation for
implementation of a quality assurance program and state that they have already
submitted a personnel request to assign staff; however, due to limited resources, the
implementation of the program will be a multi-phased approach.

The Office of Programs concurs with the recommendation and has advised us they
have reviewed list of their systems and requested modification of the only system that
should, but does not, offer “Read-Only” access.




                                             4

Inadequate Segregation of Duties Among User and Programmer Analysts

The RRB has not ensured adequate segregation of duties among users of RRB-
developed applications because a large number of system analysts have been granted
access to all three systems environments: development, test, and production to facilitate
performance of their jobs.1

Key duties and responsibilities need to be divided or segregated among different people
to reduce the risk of error or fraud. No one individual should control all key aspects of a
transaction or event.2

Our review of the access profiles of 186 randomly selected system users disclosed
seven users who have access to all three systems environments. The sample results
indicated that the number of users who have privileges giving them access to all three
systems development environments exceeds 5% of the total.

We performed additional non-sampling tests that disclosed that:

    •	 40 of the 173 employees (23%) in the Bureau of Information Services have
       access privileges that permit them to process transactions within the production
       environment; and
    •	 68 of the 85 user analysts (80%) in the Bureau of Information Services and the
       Office of Programs have access to the development environment and regularly
       perform system testing in this environment.

Data processing personnel who build and modify systems should not be able to enter or
process transactions in the production environment. System users should not be able
to access systems being developed or modified in the development environment. Such
accesses are incompatible because they permit individuals to control all aspects of
transaction processing, increasing the agency’s risk that errors or wrongful acts could
go undetected.

Recommendation

We recommend that the Bureau of Information Services:

    3. 	 review the responsibilities and related system accesses of individuals who have
         been granted access to all three systems development environments, and take
         action to appropriately restrict system privileges.

1
  The “development environment” is used by programmers to build or modify applications. The “test

environment” is used by programmers and user analysts to test the operational capability of new

applications and modifications before making them available to all users in the production environment.

The “production environment” is the system as accessed by general users to view, enter and process

transactions.

2
  “Standards for Internal Control in the Federal Government,” General Accounting Office, November 1999,

GAO/AIMD-00-21.3.1.



                                                   5

Management’s Response

The Bureau of Information Services generally concurs with the finding; however, they
are not currently prepared to fully implement the recommendation.

At the present time, the Bureau of Information Services does not plan to modify the
accesses of user analysts to support segregation of duties because to do so would
disrupt procedures and practices that have been followed for a number of years and
would cause delays in testing and implementation. They believe that other controls
effectively mitigate the agency’s risk. Future conversion of IDMS databases to a DB2
environment will require revision of the existing test environment and they plan to
address segregation of duties at that time.

With respect to programmer analysts, the Bureau of Information Services responded
that they have reviewed their access privileges to production applications and made
changes to individual’s access based on application use and job responsibilities.


Former RUCS and FAST System Administrators Retain Privileges

Users of the RUCS and FAST systems, who are required to enter transactions for
processing as part of their regular duties, are also able to administer the systems’
security features. The RUCS and FAST systems support critical activities within the
agency’s benefit payment operations.

As discussed earlier in this report, a system user’s access should be restricted to the
minimum necessary to perform his or her job and key duties and responsibilities need to
be divided among different people.

In February 2002, the OIG recommended that the Bureau of Information Services
implement independent reviews of system administrator functions throughout the
agency.3 That recommendation was intended to address the internal control weakness
created by RUCS and FAST system administrators in the Office of Programs who were
also required, as part of their duties, to enter transactions for processing.

As a result of the OIG’s recommendation, responsibility for RUCS and FAST system
administration was re-assigned from the Office of Programs to the Bureau of
Information Services. However, the high-level privileges of the former RUCS and FAST
system administrators in the Office of Programs were not revoked. The corrective
action taken by management replaced one control weakness with another by permitting
the former systems administrators to retain privileges that they no longer required.



3
 “Review of Information Security at the Railroad Retirement Board,” OIG Audit Report # 02-04, February
5, 2002.


                                                  6

Recommendation


We recommend that the Bureau of Information Services:


   4. 	 revoke the administrator-level privileges held by Office of Programs personnel
        who enter transactions in the RUCS and FAST systems.

Management’s Response

The Bureau of Information Services concurs and has reported revoking the questioned
privileges.




                                           7

                                                                                           Appendix I
                             Sampling Methodology and Results

We used statistical sampling to assess the effectiveness of controls designed to limit the
access privileges of users of RRB-developed mainframe applications.

Audit Objective

The objective of the sample review was to assess the adequacy of internal control over
the access privileges granted to users of RRB-developed systems.

Scope

We selected the sample from the population of 1,104 users of RRB-developed
applications as of November 2003.

Review Methodology

We used statistical acceptance sampling using a 95% confidence and 5% tolerable
error which directed a 186 case sample. The threshold for acceptance was four
exceptions. Four exceptions would permit the auditors to infer, with 95% confidence,
that controls were adequate to ensure that no fewer than 95% of users had only the
access privileges required for performance of their current job.

Any user who had privileges that exceeded the requirements of their current position
was counted as an exception. Similarly, we considered whether the privileges held by
system users indicated an inadequate segregation of duties that would increase the risk
of errors or fraud by permitting some users to control too many key activities.

We also performed non-sampling tests of selected user groups to supplement the
sampling tests of controls.

Results of Review

Our evaluation of the system privileges of 186 randomly selected users identified 66
users whose access profile included privileges that were not required to perform current
responsibilities.4 We identified:

        •	 51 individuals retained authorization privileges that had been made obsolete
           by the implementation of modifications/enhancements that transferred some
           functions to another system;
        •	 13 individuals required “Read-Only” access, but had been granted
           data/transaction entry privileges because the systems did not support “Read-
           Only” access. In 12 of the 13 cases, the questioned privileges were in the
           same system.

4
 We ended the sample evaluation of system accesses with respect to job responsibilities after 66
exceptions were identified. Accordingly, our review may not have disclosed all of the possible exceptions
among system users in the audit sample.


                                                    8

                                                                           Appendix I
                        Sampling Methodology and Results

      •	 2 users retained privileges that had been made unnecessary by changes in
         position or the end of a temporary duty assignment.

We also questioned the adequacy of the segregation of duties in the access privileges
of 108 programmer and user analysts who had been granted access, other than “Read
Only,” to all three systems environments: development, test, and production.

Audit Conclusion

The number of exceptions identified exceeds the sample acceptance threshold. As a
result, we cannot conclude that controls are adequate to ensure that at least 95% of
users whose access privileges are controlled through CA-ACF2 or IDMS hold only the
access privileges required for performance of their current job or that adequate
segregation of duties is being maintained.




                                          9

